 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




 NATIONAL PRACTITIONER DATA BANK:

USEFULNESS AND IMPACT OF REPORTS

    TO STATE LICENSING BOARDS





                 MARCH 1993

                      OFFICE OF INSPE~OR                  GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Semites’ (HHS)
programs as well as the health and weifare of beneficiaries sewed by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office Of Audit Semites, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.                                                          ,


                          OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Sewices (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penaities. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian, Ph. D., the Regional
Inspector General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region,
Office of Evaluation and Inspections. Participating in this project were the following people:

Boston Region                                               Headquarters
David Veroff, R@ect Leader                                  Alan Levine
David Schrag, Lead Analyst

For additional copies of this repo~ please contact the Boston Regional Office at
(617) S6S-105O.
 Department of Health and Human Services
         OFFICE OF
    INSPECTOR GENEML




 NATIONAL PRACTITIONER DATA BANK:

USEFULNESS AND IMPACT OF REPORTS

    TO STATE LICENSING BOARDS





            MARCH 1993   OEI-01-90-00523

                EXECUTIVE                         SUMMARY

PURPOSE

The purpose of this study is to assess the utility of National   Practitioner   Data Bank
reports   to State licensing boards.

BACKGROUND

Since September 1, 1990, the National Practitioner Data Bank has received and
maintained records of malpractice payments and adverse actions taken by hospitals,
other health care entities, State licensing boards, and professional societies against
licensed health care practitioners. It provides hospitals, licensing boards and other
health care entities with information relating to the professional competence and
conduct of physicians, dentists, and other health care practitioners. It is operated by a
contractor to the Health Resources and Services Administration (HRSA) of the Public
Health Service (PHS).

The primary users of the Data Bank are hospitals, which are required by law to query
the Data Bank about practitioners at the time they apply for hospital privileges and at
least every two years thereafter. State licensing boards are permitted to query the
Data Bank, but are under no mandate to do so. Few licensing boards have opted to
query.

Licensing boards receive much of the information contained in the Data Bank even
without querying. They automatically receive copies of reports to the Data Bank from
malpractice insurers regarding payments (judgments or settlements) made within their
own States. They also act as conduits to the Data Bank for hospitals and professional
societies in their States, receiving reports of adverse actions from these sources and
forwarding copies to the Data Bank. In addition, many States have their own laws
mandating reports to boards of malpractice payments and hospital discipline. Medical
and dental boards, furthermore, routinely get information on adverse actions against
physicians and dentists taken by their counterparts in other States through
clearinghouses run by those boards’ national organizations. Therefore, information
contained in the Data Bank that is not routinely available to State boards consists
primarily of malpractice payments and hospital disciplinary actions occurring in other
States.

In our inspection, we sought to provide an early assessment of the usefulness and
impact of information in the Data Bank to hospitals and State licensing boards.
Toward that end, we based our data selection and analysis on matches -- that is, the
occasions on which the Data Bank provided records of malpractice payments or
adverse actions to querying entities. A separate report on hospitals’ experiences was
based on a sample of 200 of the 19,122 matches sent to hospitals from the Data Bank
in the period from its opening until March 19, 1992 (see “National Practitioner Data


                                              i
Bank: Usefulness and Impact of Reports to Hospitals,” OEI-01-90-00520, February
1993). In that same time period, boards only had 68 matches. Because the number of
matches was small, the report on boards’ experiences assesses the entire universe.

From the opening of the Data Bank in September 1990 through March 19, 1992, 13
different boards submitted 59 queries that matched one or more reports about
practitioners in the Data Bank. We sent 1 questionnaire regarding each query to
these boards, and received 44 replies from 9 boards.

FINDINGS

USEFULNESS TO STAZ73LICENSING BO~Si                Most Data Bank msponw       were
usejid to Sttzte boardk

Measured by both objective and subjective criteria, the Data Bank appears to be
providing valuable information to State boards.

      Six of the nine responding State boards query about all first-time applicants for
      licenses.

      Ten of the 44 Data Bank responses provided information previously unknown
      to State board staffs. All of these responses yielded information from sources
      outside the States in which the querying boards were located.

      The Data Bank has delivered accurate reports to State boards, and its
      timeliness has been improving.

      State board officials found 29 of 44 Data Bank responses useful. The most
      frequently cited reason for Data Bank reports’ usefulness was that they
      confirmed information about practitioners that State board officials already
      knew.

      Neither the source of reports nor, for malpractice reports, the payment amount
      affected the proportion of Data Bank responses that State board officials rated
      useful.

IMPACT ON DECISIONS: Data Bank repo~ never led State boardk to make licensure
or dimiplihary deczkions they wozdii not have made without the reports, even when the
reprts provided ihformatz”onthat State boarak did not already know.

By the time of our survey, responding boards had reached decisions on the
applications or investigations of 20 of the 44 practitioners involved in matches. We
evaluated the reports’ impact on those decisions by asking State boards the following
question: Would your decision regarding the practitioner have been different if you
had not queried the Data Bank?



                                           ii
      None of the 20 decisions would have been different, according to State board
      officials, if the boards had not queried the Data Bank.

      Fifteen of the 20 Data Bank responses regarding practitioners about whom
      final decisions were made had little chance to have an impact on those
      decisions. Each of these responses either arrived after the decision was made
      or duplicated available information.

      Five Data Bank responses arrived before State boards’ decisions were finalized
      and contained information that neither the practitioner involved nor any other
      sources had provided, but did not have an impact on State boards’ decisions.
      In four of these cases, the State boards granted full approval to the
      practitioners’ requests for licenses. In one case, a board denied a license for
      reasons unrelated to its receipt of information from the Data Bank.

CONCLUSION

Most licensing boards have not queried the Data Bank. Among their reasons for not
querying is that they already receive much of the information sent to the Data Bank.
Our results suggest, however, that boards may be underestimating the value of
querying the Data Bank. Two-thirds of the responses that nine boards have received
in response to queries have been considered useful, and several responses have
provided information that the boards did not already have.

Boards might make the best use of the Data Bank by querying in cases where
information from out of State is needed, because boards are less likely to obtain
information routinely from out-of-State sources than in-State sources. Boards could
design targeting strategies with this in mind. For example, they could query about all
practitioners who apply for licenses after practicing in other States. Or they could
query about current licensees who also maintain licenses in other States.

COMMENTS ON THE DRAFT REPORT

We received comments on our draft report from the Public Health Semite (PHS) and
the Assistant Secreta~ for Management and Budget (ASMB) within the Department
of Health and Human Services and from the Federation of State Medical Boards
(FSMB) and the American Association of Dental Examiners (AADE). In appendix C,
we reproduce each set of comments in full and provide our responses to them.

A common comment was that the findings were         difficult to analyze because   the
sample size was small. We note that the report      was not based on a sample,      but was
based on the universe of matches at the time of     the study. While we agree       that the
experience is limited, we feel our study provides   meaningful insight into the    Data
Bank’s utility.




                                           ...
                                           111
                       TABLE                    OF CONTENTS
                                                                                                                                         PAGE

EXECUTIVE SUMMARY

mODU~ON                  ..................................                                  . . . . . . . ..*..                             �   ��       1


mugs            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...=...      �   �   �   �   �   �   �   �   �   �   �   �   �   �    �   3

 . Usefulness to State Licensing Boards                    .................                 �   �   �   �   �   �   �   �   �   �   �   �   �   �    �   3

    � Impact   indecisions       . . . . . . . . . . . . . ...=.     ............            �   �   �   �   �   �   �   �   �   �   �   �   �   �    �   6

CON~USION             ....................................                                   �   �   �   �   �   �   �   �����               �   ��       9

COMMENTS          ON THE D~REPORT                              ...............               �   �   �   �   �   �   �   �   �   �   �   �   �   .        10

APPENDICES

A     Methodology       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...=..     �   �   �   �   �   �   �   �����               �       A-1

B: Summary of Licensing Boards’ Responses to OIGMail                                 Sumey           . . . . . . . . . . . B-1

c: Detailed Comments on the Draft Report and OIG Response to the Comments C-1

D: Notes       . . . . . . . . . . . . . . . . . . . . . . . . . .............”””~””””””-”                                           ““”D-l
                          INTRODUCTION

PURPOSE

The purpose of this study is to assess the utility of National Practitioner   Data Bank
reports to State licensing boards.

BACKGROUND

Since September 1, 1990, the National Practitioner Data Bank has received and
maintained records of malpractice payments and adverse actionsl taken by hospitals,
other health care entities, State licensing boards, and professional societies against
licensed health care practitioners. It provides hospitals, licensing boards and other
health care entities with information relating to the professional competence and
conduct of physicians, dentists, and other health care practitioners. The Data Bank
was established by Title IV of the Health Care Quality Improvement Act of 1986
(P.L. 99-660, as amended) and is funded by user fees and Federal outlays. It is
operated by Paramax Systems Corporation (a subsidiary of Unisys Corporation) under
contract to the Health Resources and Semites Administration (HRSA) of the Public
Health Semite (PHS).

The primary users of the Data Bank are hospitals, which are required by law to query
the Data Bank about practitioners at the time they apply for hospital privileges and at
least every two years thereafter. State licensing boards are permitted to query the
Data Bank, but are under no mandate to do so. Few licensing boards have opted to
query.2

Licensing boards receive much of the information contained in the Data Bank even
without querying. They automatically receive copies of reports to the Data Bank from
malpractice insurers regarding payments (judgments or settlements) made within their
own States. They act as conduits to the Data Bank for hospitals and professional
societies in their States, receiving reports of adverse actions from these sources and
forwarding copies to the Data Bank. In addition, many States have their own laws
mandating reports to boards of malpractice payments and hospital discipline. Medical
and dental boards, furthermore, routinely get information on adverse actions against
physicians and dentists taken by their counterparts in other States through
clearinghouses run by those boards’ national organizations. Therefore, information
contained in the Data Bank that is not routinely available to State boards consists
primarily of malpractice payments and hospital disciplinary actions occurring in other
States.

In our inspection, we sought to provide an early assessment of the usefulness and
impact of-information in the Data Bank to hospitals and State licensing boards.
Toward that end, we based our data selection and analysis on matches -- that is, the
occasions on which the Data Bank provided records of malpractice payments or


                                              1
adverse actions to querying entities. A separate report on hospitals’ experiences was
based on a sample of 200 of the 19,122 matches sent to hospitals from the Data Bank
in the period from its opening until March 19, 1992 (see “National Practitioner Data
Bank: Usefulness and Impact of Reports to Hospitals,” 0EI-01-90-O0520, February
1993). In that same time period, boards only had 68 matches. Because the number of
matches was small, the report on boards’ experiences assesses the entire universe.

This report examines why boards who have received reports elected to query the Data
Bank, whether they found the information they obtained useful, and what impact the
information had on board proceedings. Most of the boards involved were medical
boards.

METHODO~GY

From the opening of the Data Bank in September 1990 through March 19, 1992, there
were 59 queries from boards that matched a total of 68 reports about practitioners in
the Data Bank. Thirteen different agencies submitted these queries: 11 medical
boards, 1 dental board, and 1 umbrella agency representing several State boards. We
sent 1 questionnaire per query to these boards and received 44 usable replies.
Appendix A gives details of our methodology and provides information about the
reports, practitioners, and State licensing boards included in this study.

In this study, the term “report” refers to information about a single malpractice
payment or adverse action that has been submitted to and stored by the Data Bank.
The term “response” refers to information delivered to a licensing board in response to
a query. A response may contain one or more reports about a practitioner named in
a board’s query. Five of the 44 responses described in this study contained 2 reports
each, for a total of 49 reports.

We conducted our review in accordance with the Interim Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.

OTHER REPORTS

This report is one in a series of OIG studies on the Data Bank. Other studies include:

      National l?acti~ioner Data Bank: Controls Over Authorized Agents (OEI-12-90-
      00530), August 1991
      National Practitioner Data Bank: Mai’practice Reporting Requirements (OEI-Ol -
      90-00521), April 1992
      National Practitioner Data Bank: Proj71eof Matches (OEI-01-90-O0522), April
      1992
      National l?actitioner Data Bank: Ensuring Proper Access by Health Care Entities
      (OEI-12-92-00290), August 1992
      National Practitioner Data Bank: Usefulness and impact of Reports to Hospitals
      (OEI-01-90-00520), February 1993


                                           2
                                 FINDINGS

USEFULNESS TO STAE13LICENSING BO~S:                  Most Data Bank reprts were UYejid
to State boardh

Whether a report from the Data Bank is useful to a licensing board depends on
several factors. Some factors can be determined objectively, such as whether the
report provides new information or duplicates other reports, whether it is accurate,
and whether the report arrives at the board in time to be used during licensure or
disciplinary proceedings. Other factors are purely subjective, such as whether the
information is relevant to the reported practitioner’s competency and professionalism.
Measured by both objective and subjective criteria, the Data Bank appears to be
movidin~ valuable information to State boards.
1        v




    �   Six of the nine responding State boards query about all first-time applicants for
        licenses.

One measure of Data Bank reports’ usefulness is boards’ persistence in trying to
obtain them. During the first 18 months of the Data Bank’s operations, the odds of
receiving a report of a malpractice payment or adverse action in response to a query
were slim. The 68 matches by State boards resulted from nearly 10,000 queries.3
This is a match rate of less than 1 percent.4

Despite these low odds, six State boards decided that the potential of receiving
information as a result of a query justified the six dollar querying fee every time they
received an application for an initial (as opposed to renewed) license. The six are
medical boards in Alaska, Iowa, Kentucky, Louisiana, and Missouri, and an agency
representing several boards in Florida. Some of these boards query under other
circumstances as well. Louisiana and Florida query about all practitioners who apply
for reactivation or reinstatement of their licenses, while Iowa and Florida query about
certain practitioners who are under investigation. Alaska’s policies resulted in
approximately 300 queries through the Spring of 1992; in Florida, the number of
queries exceeded 5,000.

The other boards responding to our survey query under more limited circumstances.
The Washington medical board limits queries to certain practitioners under
investigation. The Nevada medical board queries about a select group of license
applicants. The Texas medical board has only queried the Data Bank once.

Of the 44 queries in our sample, 37 were prompted by initial license applications, 3 by
renewal applications, and 4 by investigations of current licensees.




                                             3
  �   Ten of the 44 Data Bank responses provided information previously unknown
      to State board staffs. All of these responses yielded information from sources
      outside the States in which the querying boards were located.

It creating the Data Bank, Congress was trying to meet the “national need to restrict
the ability of incompetent physicians to move from State to State without disclosure or
discovery of the physician’s previous damaging or incompetent performance.”5 One
measure of the usefulness of Data Bank reports, therefore, is the extent to which they
add to boards’ knowledge by providing information the boards do not obtain
elsewhere. Another measure is the extent to which this information pertains to
practitioners who move from State to State. So far, 10 reports to boards in response
to queries have satisfied both criteria. Seven of these reports involved malpractice
payments, two involved hospital privilege actions, and one involved a board licensure
action.

Boards do not always receive complete information from sources other than the Data
Bank. Fifteen of the 44 practitioners involved in Data Bank reports received by
boards did not inform the boards of the payments or adverse actions contained in the
reports. Of the 12 Data Bank reports involving adverse actions taken by State boards,
6 provided information that boards did not obtain from either the Federation of State
Medical Boards (FSMB) data base or the originating boards themselves. Whether this
communication gap results from reporting boards and FSMB failing to provide
requested information or from querying boards failing to request information from
these sources, we cannot say.

  �    The Data Bank has delivered accurate reports to State boards, and its
       timeliness has been improving.

During the planning and early implementation of the Data Bank, some observers
feared that erroneous information about practitioners could be relayed from the Data
Bank to Data Bank queriers.b But the Data Bank’s safeguards, such as allowing
practitioners to dispute reports against them, seem effective in preventing the release
of incorrect reports. Boards had almost no complaints about the reliability of
information in Data Bank reports. No board in our sample responded that the Data
Bank report it received was inaccurate. (Boards evaluated, or had a chance to
evaluate, the accuracy of the information by comparing it to information they had
already received or by making inquiries of other sources after they received the
reports. Their judgments, therefore, are good indicators of the accuracy of the
reports.)

In most but not all cases, responses from the Data Bank contained complete histories
of malpractice payments and adverse actions from September 1, 1990, through the
dates of the responses. In 42 of the 44 cases, boards had no knowledge of any
malpractice payments or adverse actions that should have been reported to the Data
Bank but were not included in the response to the board’s query.’ We cannot judge,
however, whether underreporting is a significant problem. Although it seems that the


                                           4
Data Bank has full information on those practitioners who are reported, there remains
the possibility that practitioners who should have been reported to the Data Bank
never were.

Timeliness is an important factor in the usefulness of the Data Bank, and the Data
Bank seems to be improving in this area. For the 6 queries in our sample submitted
in the Data Bank’s first 6 months of operation, the median response time was 97
days.8 For the 19 queries submitted over the following 6 months, the median
response time fell to 52 days. During the final 6 months of our study period, median
response time to 11 queries was 41 days.9 (Respondents had not recorded dates of
submission and/or response for eight queries in our survey.)

  .    State board officials found 29 of 44 Data Bank responses useful. The most
       frequently cited reason for Data Bank responses’ usefulness was that they
       confirmed information about practitioners that State board officials already
       knew.

Measured by board officials’ assessments, 66 percent (29 of 44) of Data Bank
responses received between September 1, 1990, and March 19, 1992, were useful. Of
the 29 responses they considered useful, board officials considered 19 useful at least in
part because they confirmed other available information. The next most frequently
cited reason was that they provided information unavailable elsewhere (eight
responses).

Not all board officials valued responses that confirm available information. Of the
15 responses considered not useful, board officials considered 13 not useful at least in
part because they were duplicative.

  .    Neither the source of reports nor, for malpractice reports, the payment amount
       affected the proportion of Data Bank responses that State board officials rated
       useful.

There were no significant differences in the percentage of responses judged useful
according to the incident involved (payment vs. adverse action), amount of malpractice
payment, location of report (in-State vs. out-of-State), or type of adverse action (table
l).10 These results are contrary to expectations. Some observers familiar with the
Data Bank and with licensing boards believe that reports of adverse actions would be
more useful than reports of malpractice payments and that reports of large
malpractice payments would be more useful than reports of small ones.

lMPACT ON DECISIONS: Data Bank repo~ never led State boards to make licensure
or dkipli?wy &chions they wouhi not have made wz”thoti the repo~, even when the
reprts pmviibd informah”on that State boanik did not alreadj know.

One can characterize the impact on State boards of information received in response
to Data Bank queries in several ways. Impact can include giving board staff


                                            5
                                           lXB~   1


       USEIWLN=S             TO LICENS~G BOARDs oF D_RENT               m=
                               OF DATA BANK RESPONSES

                                                  Number of         Responses
 Type of respome        (see endnote 10)                            considered
                                                  responSes in
                                                  suney             useful

 Incident involved
                                                         26             18 (69%)
           Malpractice payment
                                                         18             11 (61%)
           Adverse action
 Amomt          of malpra~=     payment*
                                                          7              5 (71%)
           Less than $50,000
                                                          14             10 (71%)
           $50,000 or more
  Typ of adveme action
                                                          13              9 (69%)
           Board licensure action
                                                           5              2 (40%)
            Hospital privileges action
     Location    of repofl
                                                          41              27 (66%)
            Out-of-State
                                                           3              2 (67%)
            In-State

 Note: None of these differences are significant at the 95 percent confidence level.
 �

     The total amount of five malpractice payments was unavailable.

  SOURCE: OIG Survey of State Licensing Boards, Spring 1992                              —     I




confidence that they have complete information about their licensees. It can include
                                      files that could be used in the future should
adding information to practitioners’
questions arise. But Data Bank reports can have their most direct impact by affecting
the outcome of decisions on practitioners who have just     applied
                                                        For this     for initial
                                                                 reason, we askedor renewed
                                                                                     boards

licenses, or who may be facing disciplinary actions.

the folloting question: Would your decision regarding the practitioner have been

 different if you had not queried the Data Bank?


Because our measurement of impact focused on the boards’ decisions, . we excluded
any situations involving pending decisions from this analysis. By the time of our
survey, responding boards had reached decisions on the applications or investigations
of 20 of the 44 practitioners involved in matches.

                                                  6
  .       None of the20decisions      would have been different, according to Skateboard
          officials, if the boards had not queried the Data Bank.

The 20 final decisions included 18 decisions on license applications and 2 decisions
following investigations. The licensure decisions included 13 approvals, 3 rejections,
1 restriction, and 1 probation. Boards closed both of the completed investigations
without imposing sanctions. In no case did a board official say the outcome of the
decision hinged on the response to a Data Bank query.

  �       Fifteen of the 20 Data Bank responses regarding practitioners about whom
          final decisions were made had little chance to have an impact on those
          decisions. Each of these responses either arrived after the decision was made
          or duplicated available information.

A variety of reasons explained why it was unlikely for Data Bank responses to have
had an impact on licensure or disciplinary decisions. When boards received responses
after their decisions had been made, the responses clearly could not affect those
decisions. When boards were already aware from other sources of the information in
the Data Bank responses, the responses themselves were unlikely to affect decisions.
Board officials who received confirming information may have felt more confident
about decisions they were planning to make, but they probably would not have altered
their decisions based on duplicative information.

Fifteen of the 20 responses had little chance of having an impact on decisions. Four
responses were received after the boards’ decisions. Eleven responses, though
received by boards before decisions were made, provided only information already
known to the boards.                   ,

The remaining five responses were received prior to the decision and provided
information unavailable elsewhere. These responses had the potential for having an
impact on board decisions.

      �   Five Data Bank responses arrived before State boards’ decisions were finalized
          and contained information that neither the practitioner involved nor any other
          sources had provided, but did not have an impact on State boards’ decisions.
          In four of these cases, the State boards granted full approval to the
          practitioners’ requests for licenses. In one case, a board denied a license for
          reasons unrelated to its receipt of information from the Data Bank.

One practitioner about whom a board learned of new information from the Data
Bank before making its decision had a long history of adverse incidents. The board
knew of two incidents that occurred before the Data Bank opened, and these incidents
were sufficient grounds to deny the practitioner’s application for a license. The
board’s decision, therefore, was not affected by the receipt of still more damaging
information from the Data Bank.



                                               7
All four responses about practitioners who were ultimately granted licenses contained
single reports of malpractice payments. The payment amounts ranged from $24,000 to
$717,366. None of these practitioners informed the boards of the payments on their
behalf, and each Data Bank response was considered useful by the board receiving it.
Apparently, however, the boards decided that neither the practitioners’ actions leading
to the malpractice suits nor the practitioners’ failure to disclose the payments
warranted an adverse licensure decision.




                                           8
                            CONCLUSION

Most licensing boards have not queried the Data Bank. Among their reasons for not
querying is that they already receive much of the information sent to the Data Bank.
Our results suggest, however, that boards may be underestimating the value of
querying the Data Bank. Two-thirds of the responses that nine boards have received
to their queries have been considered useful, and several responses have provided
information that the boards did not already have.

Boards might make the best use of the Data Bank by querying in cases where
information from out of State is needed, because boards are less likely to obtain
information routinely from out-of-State sources than in-State sources. Boards could
design targeting strategies with this in mind. For example, they could query about all
practitioners who apply for licenses after practicing in other States. Or they could
query about current licensees who also maintain licenses in other States. Meanwhile,
they might choose not to query about practitioners seeking the first professional
licenses of their careers, as these practitioners are unlikely to have been reported to
the Data Bank. A period of experimentation with querying would probably help
States determine how to make the most cost-effective use of the Data Bank. Boards
might wish to repeat such experiments periodically, to see whether querying becomes
more fruitful as the Data Bank continues to collect information.

As we noted in the introduction, the Data Bank provides information even to those
boards that choose not to query. Boards now automatically receive reports of all
malpractice payments and hospital and professional society disciplinary actions
occurring within their States. This function of the Data Bank has particular
significance for boards in States without complementary reporting laws.




                                            9
COMMENTS                     ON THE             DRAFT             REPORT
From within the Department of Health and Human Services, we received comments
on our draft report from the Public Health Service (PHS) and the Assistant Secretary
for Management and Budget (ASMB). We also received comments from the
Federation of State Medical Boards (FSMB) and the American Association of Dental
Examiners (AADE). In appendix C, we reproduce these comments in full and provide
our responses to them.

The PHS found our report useful and had supportive comments. The PHS felt our
title was somewhat misleading. We have added some information in our background
to address this issue.

The ASMB felt it was difficult to evaluate the findings based on a small sample. We
note that the report was not based on a sample, but was based on the universe of
matches at the time of the study. The ASMB also felt that we should include three
recommendations in our report. As we explain in appendix C, we chose not to
incorporate ASMB’S recommendations into our report.

The FSMB felt the sample size was too small to allow us to make significant findings.
They felt that it was premature to be doing a study of this sort. As noted above, the
report was based not on a sample of matches, but on the universe of matches at the
time of the study. While we agree that the experience is limited, we feel our study
provides meaningful insight into the Data Bank’s utility.

The AADE was also concerned about the size of the sample, particularly since only
one dental board was represented. They suggested that the report distinguish between
medical boards and dental boards. We have included more information in the
introduction to clarify that most of the experience we base our conclusions on is from
State medical boards.




                                          10
                            APPENDIX                    A

                                  METHODOLOGY

We collected the data presented in this report through a mail survey of State licensing
boards conducted from February to July 1992. We surveyed the universe of all
59 Data Bank queries from licensing boards between September 1, 1990, and March
19, 1992, that resulted in matches. A match is a pairing of a report and a query to the
Data Bank that name the same practitioner. The 59 queries matched a total of 68
reports in the Data Bank. We requested and received from Paramax Systems
Corporation a computer file containing records of all queries and reports received by
the Data Bank that identified the same practitioner. We restructured and analyzed
the data using Version 6.04 of the SAS System for Personal Computers.

By April 1992, we had mailed a questionnaire about each query to the board involved.
Thirteen boards received these questionnaires. Table A shows the response rate for
each board. Analysis of nonrespondents showed no biases in favor of types of reports
(adverse actions VS.malpractice payments) or dollar values of malpractice payments.
Appendix B shows the questionnaire and simple frequencies of the responses.

Five of the respondents’ queries matched two reports in the Data Bank. Therefore,
our 44 returned surveys corresponded to 49 individual matches.

With the exception of one dentist,    all practitioners named in the 44 returned surveys
were physicians. Eighteen queries      matched reports of adverse actions and 26 matched
reports of malpractice payments.      The adverse actions consisted of 14 board
disciplinary actions and 6 hospital   privilege actions (2 queries matched 2 adverse
actions each).




                                            A-1
                                                                                      -1




                                                           Number of   Number of
                                          Number of
Licensing Board                                            RepOr@      Responses to
                                          Queries
                                          Resulting in     Matchd      OIG Sumq
                                          Match=
                                                           5           5
                                          5
 hska Board of Mediul Examiners
                                          1                1           0
 Jaska Board of Dental Examiners
                                                           1           0
                                          1
 bnnecticut Divisionof Mediml Quality
 Msurance
                                                           26           17”
                                          24
 ~oridaDepartment of Professional
 {egulation
                                                            8           3
                                           6
 owa Board of Medid Examiners
                                                               1           1
                                           1
 Centuc& Board of MediMl L@nsure
                                                               11          10*
                                              10
 Louisiana Board of Mediml Examiners
                                                               Q           5“
                                              5                0
 Missouri Board of Registration for the
 Healing ~ts
                                                               1           1
                                              1
 Nevada Board of Mediml Examiners
                                                               3           0
                                              2
 New Jersey Board of Mediml Examiners
                                                               11          0
                                               1
  Pennsylvania Board of Medicine
                                                                1           1
                                               1
  Texas Board of Mediml Examiners
                                                                1           1
                                               1
  Washington Mediml Disciplinary Board
                                                                68          44
                                               59
  Total

 * Among the queries for which we received replies to our survey, three from the Missouri
                                     and one from the Louisiana Board matched two Data
 Board, one from the Florida Board,
 Bank reports. Therefore, the total number of reports matched by queries in our sample is
 49 rather than 44.                                                                         I




                                                    A-2

                              APPENDIX                      B


 sUMMARY OF LKENSmG BOWS’                         RESPONSES TO OIG MAIL SURWY

                                                                             SERW-
       U.S. D=MW~                  OF =m                 AND   ~

                        USE AND UTILITY OF THE
                   NATIONL PRACTITIONER DATA BANK

NOTE: The first23 questionsin   this surveyconcernthe case of Doctor & whoseidentityis givenon the
attached identifimtion sheet. Please confineyour responsesto your knowledgeof that particular case.
                         BASIC FACTS AND CHRONOLOGY
                                                                                               1
  1        What is Doctor A’s specialty? 18 difierent spectilhm repraented
                                                                                               2
           On what date did you request information about Doctor                //
                                                                              ———
           A from the National Practitioner Data Bank?
                                                                                               3
           On what date did you receive a response from the Data                1
                                                                                If     I
                                                                              ———
           Bank?
           what prompted you to request information about Doctor A from the                    A
           National Practitioner Data Bank?

            37      (a) Initial license application (Go to Question 5)

             3      (b) Renewal of license (Go to Question 6)

              4C    () Inquiry or investigation    (Go to Question 9)

              o     (d) Other (Explain:



                                                                     ) (Go to Question 13)
                                                                                                   5
      5	     (2hswer if you answered (a) to Question 4)                            //
             On what date did Doctor A file an initial license                  ~s~tr
             a~plication?
              AA
                                                                                 Question T)
                                                                                                   6

      6      (Answer if you answered (b) to Question 4)                             //
             On what date did Doctor A file a renewallicense                      — ————               II
             application?


                                                  B-1

                                                                                             7
7        (Answer if you answered (a) or (b) to Question 4)                  //
         on what date did the State board make its decision           ,_     _     —
         about Doctor A’s licensure application or renewal?
                                                                                             8

         (Answer ~ you answered (a) or (b) to Question 4, then
         skip to Question 13)
         What was the decision on Doctor A’s license?

          22    (a) No decision reached yet

          13	   (b) License application approved or renewed
                without restrictions

           3    (c) License application rejected

           1     (d) Restrictions placed on license

           1     (e) Provisional or probationary     approval given

            0    (f’) other (Explain:



                                                       )
                                                                                                     --4
                                                                                                 9
    9      (Answer if you answered (c) to Question 4)
                                                                           .— //        —

           On what date did the State board initiate an

           investigation on Doctor A?

                                                                                                 10
    10     (W.swer if you answered (c) to Question 4)                            //_—
           On what date did the State board close its investigation        _
           on Doctor A? (Write “OPEN’ if the case is still open.)




                                              B-2

11        (Answer if you answered (c) to Question 4)
          What prompted the investigation?

           O         (a) Consumer complaint

           O         (b) Conviction in a criminal case

            1	       (c) Clinical privileges action by a hospital, HMO,
                     other health care organization

            o        (d) Peer retiew organization or Medicaid action

            O        (e) Malpractice claim or payment

            3	       (f) Other (Specify: iquiry from another State
                     board sumender of license in another State, repoti
                     from FSMB)
                                                                          12
     2	    (Answer if you answered (c) to Question 4)
           What was the result of the State board’s investigation?

               2      (a) No decision reached yet

               2      (b) Case closed without   action

                 O     (c) License revocation

                 O     (d) License suspension

                 O     (e) License probation

                 O     (f) Other (Specify”“~

                                                             )




                                                   B-3

                      AVAIUBILIW            AND ACCURACY OF INFORMATION
                                                                                                                 ,

I                                                                                        YES: 34        13
                   Were you aware, from sources other than the Data                      NO: 10
                   Bank, of the incident mentioned in the response from              (If no, skip to
                   the Data Bank and the subsequent disciplinary action or            Question 15)
                   malpractice payment?   (Answer “NO”if the only
                   information you received from other sources conskted of
                   those sources’ repotis to the Data Bank.)
                    From which of the following sources were you aware of the incident                  1A
                    and/or the subsequent disciplina~ action or payment?
                                                                                         Aware OX
                                                                         Aware of         Action/
                                                                         kcident         payment
                                        Source
                                                                          YES:29          YES:26            @
         a,b                            Doctor A (self-report)
                                                                                                            q
                                                                          YEs: 7          YEs: 5
         C,d           Federation      of State Medical   Boards
                                                                                                             e
                                                                          yl?s: 12        YES: 8
             e,f           Licensing     board in another   state
                                                                          YEs:o            XEs:o             g:
         g,h               Malpractice insurer in your state
                                                                          YES:o            ylfzs:
                                                                                               o
              i~       Malpractice insurer in another state
                                                                           yzs:1           YEs:1              k

             k,l                          Hospital in your state
                                                                                           YEs:o            m,n
                                                                           YES:2
         m,n                           Hospital in another state
                                                                                           YES:o             O,p
                                                                           Es: o
             O,p           Professional society in your state
                                                                                           ym: o                 q,r
                                                                           YEs:o
              q,r       Professional society in another state                                                     S,(
                                                                           YES:1            YES:1
               S,t                  Other source in your state
                                          (IF YES, SPECIFY:
                                                                    )/
                                                                           XEs:1            yjqy:   1             u;
              U,v               Other source in another       state
                                            (IF YES, SPECIFY: \
                      ~)                                                                    H!zS:5               15
    15                Was the information you received in the Data Bank                     NO: 37
                      response inconsistent in any way with the information               MISSING: 2
                      received from any of the above sources?
                                                     “~                              )
                      (1F YES, WHICH SOURCES?
                                                                                            M!?S:16               ~G
        16             Did you make additional inquiries to confirm the                     NO: 26
                       accuracy of the Data Bank report or to obtain more                 MISSING: 2
                       detailed information on its content (for example, from             (If no, skip to
                       reporting hospitals or insurers)?                                   Question 18)                 u

    1

                                                             13-4
                                                                                                                1
                                                                                               YES: 16     17
 17       (Skip if you answered NO to Question 16)                                              NO: O
          Did you find the information in the Data Bank                                    07HER 1
          response to be accurate?
          (1F NO, E~LAIN:       One board was still waitig for
              infonnatin         in respowe to i~ follow-up @u@.)
                                                                                               YES: 15     18
     18       Were you aware of any incidents, disciplinary actions, or                        NO:28
              malpractice payments involving Doctor A that were ~                       MISSING: 1
              contained in the response from the Data Bank?                             (If no, skip to
II
                                                                                         ‘Ouestion 22)

                                                                                        MISSING:
                  (Skip if you answered NO to Question 18)                              ONE: 5
                  How many disciplinary actions and malpractice

                  payments    were you aware of that were @ contained              in      77VO:
                                                                                           xWEE: 4 2

                  the response     from the Data Bank?                                     FOUR 2

                                                                                           NINE: 1
                                                                                           NONE: 13         zO
                      (Skip if you answered NO to Questiotl 18)
                      How many of these disciplinary actions and malpractice               ~0:      2
                      payments occurred after September 1, 1990?                                            21

                      (Stip if you answered NO to Question 18)
                      Which of the following sources provided information about incidents,
                      disciplinary actions, or payments that were I@ contained in the
                      response from the Data Bank?
                                                                                   ES: 14
                         A




                                                            Doctor    A (self-report)
          a
                                                                                                 ylzs:

                                                                                                     3
          b                                Federation   of State Medical       Boards
                                                                                                  YES: 6
          c                                    Licensing    board in another state
                                                                                                                 d
                                                                                                  YEs:o
          d                                    Malpractice insurer in your state
                                                                                                  YES:o             e
          e                                 Malpractice insurer in another state
                                                                                                                    f
                                                              Hospital in your state
                                                                                                  YES:o
              f
                                                                                                  YEs:2             g
                                                           Hospital in another state
              g                                                                                                     h
                                                                                                  YEs:o
              h                                Professional society in your state
                                                                                                  ylzs:
                                                                                                      o                 i
                  i                         Professional society in another state
                                                                                                   YEs:o                j
                                                        Other source in your state
                  j
                                                              (IF YES, SPECIFY:
                                                                                  )
                                                    Other source in another        state
                                                                                                   YES:o

                  k
                                                                   (IF YES, SPECIFY:
                                                                                           )


                                                            B-5

                              UTILIW OF INFORMATION

                                                                       YES: 29    22
      Overall, do you believe the information about Doctor A
          NO: 15
      contained in the response from the Data Bank was

      useful to you?

      IF YES, WHY? (Check all that app~)

        8     (a) Information was not available elsewhere

       19           (b) Information confirmed other reports that
                    were available elsewhere

        3           (c) Information helped us to judge Doctor A’s
                    competency

        3           (d) Information helped us to judge Doctor A’s
                    professionalism

            6       (e) Other (Explain:
                                                              )

       IF NO, WHY NOT? (Cheek all that app~)
        13   (f) Information was available elsewhere

            0        (g) Information was not accurate

            1	       (h) Information did not help us to judge Doctor
                     A’s competency or professionalism

        -   4        fi)
                     \/ Information   was not provided   in a timely
                     manner

                0     (j) Other (Explain:                         ))
                                                                         YEs: o        23
23	     Would the decision regarding Doctor A’s license or               NO: 36
        investigation have been different if you had @ queried          oXHER 1
        the Data Bank?
        (IF YES, EXPLAIN: NOTE: Some boards that had not               MISSING: 7
        yet reached final deckions nevetihelms answered that their
        dechions  wouki not have been different had thq not
        queried the Data Bank)




                                                B-6

NOTE: The remaining questions do not concern the specific case of Doctor ~ but rather your
general experience with and attitudes about the Data Bank.

                        GENERAL QUESTIONS ON THE
                     NATIONAL PRACTITIONER DATA BANK

24        How, if at all, have the other parts of your licensing and investigation        ~
          procedures been affected by the availability of the Data Bank?

          Five boarb cited no ejJec@, generally. 7%ree boarck said that querying
          the Data Bank slowed down the licensure process. mO boarh noted
          that the Data Bank provided the boards with another usefi.dsource of
          hlfomlatl”on
2s        Under what circumstances have you queried the National Practitioner             X
          Data Bank? (Check all that app~.)

          ~ (a)    All initial license applications
          ~ (b)    All license renewal applications
          & (c)    All complaints and referrals
          _O_(d)   All investigations and inquiries
          ~ (e)    Other (Speci@ All reachvatiom and reinstatements: 2 boards
          Some investigations and inquirim: 2 boards. Some lice~~e applications:1
          board Only one query ever: 1 board)
26        What is the total number of queries you have made to             Range:         26
          the Data Bank to date?                                           1- 5,000+

27        Please rank the following four types of information maintained in the           27
          Data Bank in terms of their usefulness to you--in practice or in
          theory--in the licensing and investigation process. (Let 1 = most
          useful and 4 = least use ful.) NOTE: Means were calculated mung one
          score per board not one score per response.
      a             Hospital disciplinary actions/privilege restrictions   MU:      1.5       a
      b                                        Licensing board actions     MM:      21        b
      c                                          Malpractice payments      AfEAIW 2.8          c
      d                       Professional society disciplinary actions    Mm:      3.1       d
 B        Is there any type of information currently maintained by the Data               z
          Bank that you believe would ~ be useful to you under ~
          circumstances? If so, please explain.

          All boards either answered “no” or did not respond



                                              B-7
29	   What kind of information @ currently maintained by the Data Bank              29
      would be useful to you?

      One board suggested other States’ deniak of license applications, one
      suggested criminal recordr, and one suggmted tiformation regarding
      incidenfi that occumed before the Data Bank opened Other boards
      answered “none” or did not respond
30	   Please list any additional comments and suggestions you have about            so
      the National Practitioner Data Bank, especially those that pertain to
      its usefulness to State licensing boards.

      One board suggested that applicants be respow”ble for que@g the Data
      Bank and that responsm be sent automatical~ to the boaruk. One board
      asked that the reportingprocess be simplified One board commented
      that ~heData Bank’s respowe time was too slow. One board noted t~t
      it rarely queried because information in the Data Bank generally
      duplicated what the board already knew. One board said that because
      the tifotmation was duplicative, the six dollar que@ng fee was too higk
      One board predicted that the Data Bank wouki become more we~ to
      boarh if and when it collecti information about practitioner other than
      physJ”ciansand dentkts. Three boards dti not respond




                                       B-8



                                                                                —        —�
                           APPENDIX                 C

           DETAILED COMMENTS ON THE DRAFT REPORT AND
                   OIG RESPONSE TO THE COMMENTS

In this appendix, we present in full the comments on the draft report offered by the
Public Health Semite (PHS), the Assistant Secretary for Management and Budget
(ASMB), the Federation of State Medical Boards (FSMB), and the American Association
of Dental Examiners (AADE). We also present our response to each set of comments.




                                        c-1
—-            —.—

                                                                                            PublicHealthServi~
     DWWT~T            OF HEAL~ & HUM             SERWCES

                                                                                             Memorandum

     “ IJEC241992
     Deputy    Assistant           SecretarY      for        Health        Managaent         Operations


     Office     of     Inspector      General     (OIG)            Draft     Report       “National
                                              Usefulness              of    Reports       to State
     Practitioner          Data     Bank:
     Licensing         Boardsr      0EI-01-90-O0523                                        ,
                                                                                                          0s
     Deputy        Inspector       General     for      Evaluation            and     Inspections,

                                                                                       on the subject
     AttaChed    are the Public      Health                    ‘e~ice     coment~ontributes        to
     draft    OIG report.     we  bel~eve                    that     the report
                                                                             . on the     “=~~ly”  Data
     the growhg      positive    evaluative                      litaratlar~


                                        7*
                                        Anthony         L.    lt      “

      Attactient




                                                                   c-2
       PUBLIC HEALTH SERVICE             fPHS~ COMMENTS ON THE OFFICE                OF
           INSPECTOR GENERAL            (OIG)  DIUU?T REPORT “NATIONm
           PRACTITIONER   DATA          BANK:   USEFULNESS AND IMPACT
                 OF REPORTS TO           STATE LICENSING   BOARDS”


The OIG performed            this    study    to assess     the uti-li.ty       of National
Practitioner          Data Bank (NPDB) reports            to State       li-censi.ng
boards.        In this    study,     OIG focussed       on the experiences            of a
small      group    of State      boards     who queried      about    practitioners
who had in fact           been reported         to the NPDB.        OIG sought        to
determine        why these       boards    elected    to query      the NPDB, whether
they     found the information             the NPDB provided          useful,      anti what
impact       the information         had on the board         proceedings.

The OIG      found   that    most  NPDB responses          were    useful     to   State
kmar~s;      however   ~ the   rqoxts   never     led      the
                                                             boards   to make
licensure      or disciplinary       decisions     that   they would not have
made even without          the reports.        OIG concludes     that   boards
might     xnake the best      use of NPDB reports        by querying     in cases
where information          from out-of-state       is needed.

We believe      that     the OIG report       represents        a contribution       to
the growing       positive     evaluative       literature        on the “early”
NPDB. However,           some readers       of the report         may be misled      by
the report’s       subtitle      which    suggests       that   the study’s     findings
are generalizable           to all   State    licensing       boards.       We suggest
that  the report         emphasize     that   query      matches    involving     only
13 State     boards      were the basis       of the study.

Technical      Comment

There    is a minor    omission     in the first      sentence      of        the first
full   paragraph    on Page 5.        The introducto~        clause           of that
sentence     should  read:      “Timeliness     is an important               factor    in
the usefulness      of the Data Bank . ...”




                                                 c-3
                       OIG RESPONSE TO PHS COMMENTS

The PHS suggested that the title of the report might mislead readers to believe the report
was generalizable to all State licensing boards when in fact it was based on the
experiences of only 13 boards. Because our report is based on a sumey of all State
licensing boards that had had matches as of March 1992 and thus represents fully this
universe, we have not changed the title. We have, however, added information in the
background section to emphasize that this is an early look at the Data Bank.




                                           c-4
    ,?@vms   ~,

�
               f
4+                                                                                                         -         of the SecretW
�
:.                      DEPARTMENT OF HEALTH& HUMAN SERVICES
:
2      ~
  %                                                                                                        Washington, D.C. 20201
   %
    ‘%v,la
      >
                                                               NW I!3IWL





                   MEMOWD~             TO:	   Bryan B. Mitchell
                                              Principal Deputy          Inspector        General               ~

                   FROM
                                          �
                                              Arnold    R.    Tompkins
                                                                       ~sm~anw
                                              Assistant       Secrets
                                h
                                                                            llNational      practitioner                Data
                   SUBJECT                �
                                          �   OIG   Draft Report:
                                              Bank: Usefulness          and Impact     of
 Reports                 to   State

                                                                        It OE1-ol-gO-00523
                                              Licensing   Boards,

                   Thank you for the opportunity                   to review      your draft      report,
                   il??atlonal     practitioner          i)ata i3anlc: Usefulness         and Impact      of
                   Reports      to State        Licensing      Boards.”       Overall,     we have found the
                   i.nformati.on       provided       in your report        very use~ul,       although       ~t WaS
                   somewhat       difficult        evaluating      the findings         of the report       given
                   the small        sample.        We do agree       that   those      who were surveyed         found
                   the majority          of Data Bank Reports             to be useful.

                   We think           that  the Data Bank provides               a	 very valuable                  service    and
                   suggest          that   PHS find     ways to increase            the usefulness                   of these
                   reports          to State    Boards.
                                                                                comments      and    recommendations
                   Therefore,           we provide      the     following
                   for   your        consideration.
                                                                 about     this response,     please     have
                   If   your staff     have any questions
                   them call     Neil   J. Sti.llman,     Deputy     Assistant    SecretarY     for
                   Information      Resources     Management,      at 690-6162,      or Joanne      Amato,
                   Office     of Information      Resources    Management,      at 690-8358.
                    At~~Chment




                                                                               C-5

                                            OIG Draft         Re~ort
                          ‘tNational           Practitioner             Data       Bank:
     Usefulness        and Im~act            of Reports           to    State       Licensincf        Boards’s




We have     found     the  information                provided          by      your   report       accurate
and useful,       although      it was        somewhat   difficult       to evaluate                           the
findings       of the report            given  the small     sample.       We do agree                           that
most Data Bank reports                  were useful    to State      Boards   included                           in
your     survey.

Based      on information           contained         in the report,           we agree      that
Boards      might      make the best          use of the Data Bank by querying                        h
cases      where     information          from out-of-State             i.s needed,       since     the
boards      are less        likely      to obtain        this    information         routinely.         We
also     agree     that     timeliness         is an important            factor      in determining
the usefulne~~            GZ reports,         although        it does not seem to be as
significant          a problem         for State        Licensing       Boards      as for
hospitals.           We also       believe       that    these     reports,       in general,         Could
be more useful            i.f Boards        were required          to qubry       the Data Bank h
certain       instances.           Given this,          we suggest        that    you provide
recommendations             to PHS as part            of your report           and offer        the
following:

        PHS is currently               in     the   process          of determining              priorities
        and strategies           for        procuring       its        second        for
                                                                                contract
        administration           of the Data Bank.           We suggest       that     PHS work
        with    Data Bank customers            i.n defining      addi.ti.onal      data   needs
        (possibly        focusing      on out-of-State        information)         that   will
        increase       the. usefulness       of these      reports,       as part      of the new
        system     design      requirements.

        Likewise,        we strongly             recommend           that       PHS make improving
        query     response       time        a high      priority.               It is our opinion
                                                                                            that
        the new system          design    should       support    a virtually     paperless
        environment       and provide         interactive        access    to the user.       We
        believe     that    this     type   of design       will    not only cut down on
        errors    significantly,          but can also         reduce    costs   and increase
        the timeliness          of responses         to our customers.

        We suggest      that       PHS seek    legislative                    authority     requiring
        State   Licensing          Boards   to query       the               Data    Bank for      first-time
        license    requests         and for   applicants                     who have    practiced
        in another      State.




                                                              C-6
                      OIG RESPONSE TO ASMB COMMENTS

Although we agree with the general thrust and many of the specifics of ASMB’S suggested
recommendations, we have not incorporated them into our report. We believe that PHS’S
work with the Data Bank Executive Committee and regular communications with user
groups constitute sufficient efforts to identify additional data needs. (Furthermore, the
State licensing boards we surveyed were given the opportunity to identi~ useful additional
data, but no type of data was identified more than once.) We believe that PHS should
make improving response time a high priority; we note that we made a recommendation
to this effect in our report entitled “National Practitioner Data Bank: Usefulness and
Impact of Reports to Hospitals” (OEI-01-90-00520). Finally, while we feel that our report
shows that the Data Bank is potentially a useful source of information for State licensing
boards, particularly about applicants who have practiced in another State, we do not feel
our evidence warrants a recommendation that PHS propose legislation requiring boards
to query. We feel that since our report is based on early evidence from very few boards,
we should not make anything more than suggestions about whether boards should query
and when they should query.




                                          c-7
                                    2 February 1993


                                    David R. Veroff
                                    Project Leader
THE FEDERATION OF                   Office of Inspector General
SZ4TE MEDICAL BOARDS
                                    Office of Evaluation and Inspections
OF THE UNITED S’ZAm INC
                                    Region 1
                                    John F. Kennedy Federal Building
6000 WESTERN PLACE
SUITE 707                           Bosto~ MA 02203
FORT WORTH, TEXAS
76107-4618

817735-8445
                                    Dear Mr Veroff
FAX 817738-6629

                                    I appreciate the opportunity to comment on the OIGS draft report titled
OFFICERS
                                    National Practitioner Data Bank: Usefulness and Impact of Reports to
PRESIDENT
                                    State Licensing Boards. I have also reviewed the accompanying report
MELVINE. SIGEL, MD
2211 PARK AVENUE SOUTH              related to hospitals but will not comment directly on that, save to suggest
MINNEAPOLIS,   MN 55404

PRESIDENT   ELE~
                                    that it appears a more useful effort.
HORMOZ RASSEKH,     MD
201 RIDGE STREET, #lOS
COUNCIL   BLUFFS 1A 51503
                                    To begin, I agree with the basic thrust of the report related to the state
VICE PRESIDENT
GERALD J. BECHAMPS,     MD          boards: that the NPDB can be a valuable tool for any entity that must
P. O. BOX 2698
WINCHEWER,     VA 22601             review physician credentials and should be as widely used as possible. At
TREASURER
SUSAN M. SPAULDING
                                    the same time, I recognize, as you do, the limitations of the bank
P. O. BOX 222
MONTPELIER,   VT 05601              stemming from its shallow reservoir of data. As you remark this will
DIRECTORS                           change as years pass. You are also correct in pointing out the bank’s value
BARBARA S. SCHNEIDMAN,
140 LAKESIDE AVE., #200
                               MD
                                    as a potential resource for research in the liability area. Clearly, and for
SEATTLE. WA 98122
                                    obvious reasons, its role in relation to state board actions is redundant, but
LEROY B. BUCKLER,  MD
640 SOUTH STATE SREET
DOVER, DE 19901
                                    that does not detract from its value as a source of information for boards
RENDEL L. LEVONIAN,   MD
                                    on privileging and liability actions taken in other states.
P. O. BOX 756
PICO RIVERA, CA 90660

 RAYMOND J. ALBE~
 7505 BUNKERHILL    RD.
                                    However, as I noted in my comments to the Executive Committee in
 AMANDA,   OH 43102
                                    December, the data presented in this report are so sparse that their use to
 JOHN T. HINTON, DO
 P.O. BOX 338                       demonstrate any point reliably is simply not tenable by any reasonable
 COLLEGE CORNER,   OH 4S003

 ROBERT 1?. PORTER, MD
                                    standard. The study was certainly premature and its conclusions, because
 ONE MEDICAL CENTER DRIVE
 LEBANON,   NH 03756
                                    of that, are of doubtful utility. The most significant points deriving from
 STEPHEN P. KELLEY. JD              the data, in fact, are that few state boards are yet (as of the date of the
 16CKITCF TOWER
 MINNEAPOLIS,   MN 5S402            study) using the NPDB and that the bank’s response time must be
 JAMES E. WEST, MD
 411-D EASI’ 9TH ST.
                                    improved for it to be of significant value in decision making. Beyond that,
 ANN1SIT3N, AL 36201
                                    the data camot go. And simple common sense has told us both those
 STEPHEN   S. SEELING,    JD
 P.O. BOX 12245
 COLUMBIA.SC 2921I
                                    things for some time.

                                     I suggest that a study of this type might better be done after more
 JAMES R, WINN, MD
 EXECUTIVE  VICE PRESIDENT
                                     extensive NPDB experience has accumulated, and that this original effort
 DALE G BREADEN
 ASSOCIATE  EXECUTIVE
 VICE PRESIDENT

  1. KATHRYN HILL, MEd
  ASSI~ANT   EXECUTIVE
  VICE PRESIDENT
                                                                 C-8
Page 2
2 February 1993
David R. Veroff


be put aside. If, indeed, the purpose of the report, as stated at its beginning, is to study the
utility of NPDB reports to state licensing boards, it fails for being too small a sample taken
too soon.

Sincerely



                            , *
                           7’7J
James R. Wi~ MD
Executive Vice President

JRW:lV




                                                 c-9
                       OIG RESPONSE TO FSMB COMMENTS

We agree that State licensing boards’ experiences with Data Bank reports are limited.
However, we feel that it is worthwhile to assess their experiences thus far to provide early
insights on an important function of the Data Bank. We note that the report is based on
a sumey of ~ boards that had matches at the time of the study. As such, it represents
the universe of boards’ experiences with reports from the Data Bank. Because boards’
experiences have been limited, we do not recommend mandated action by PHS, Congress,
or boards, but instead suggest that boards consider certain actions in light of their needs
(we note that others felt our results indicated the need for mandates). The FSMB also
contends that the most significant points deriving from the data were self-evident. We
disagree; we believe the information on usefulness and impact to be new and valuable
information particularly at this early juncture.       We do agree, however, that our
examination comes early in the history of the Data Bank. We have added text in the
introduction to emphasize the fact that this inquiry was intended to be an early look at
how State licensing boards have used and perceived the usefulness of Data Bank reports.
In the introduction, we also more clearly describe the scope of the report.




                                           c-lo
                               AMERICAN ASSOCWTION OF DENTAL EXAMINERS
                          211 E. Chicago Ave., Suite 644, Chicago, IL 60611 (312) 440-7464
                                                                    January          18,   1993

                                  Mr. David      Verof f

               FRBsrDm            Project     Leader

                                  Department      of Health           and Human Services

        Dr. Wayne J. Barnes
                                  Office     of Inspector            General

   2928 Hamilton Boulevard
      Sioux City, IA 51104        Office     of Evaluation            and Inspections

            (7 12) 255-7607       JFK Bldg.

                                  Room 1407

       pRmmlNT-EUm’               Boston,      MA 02203

           m. Joel F. Glovcr                                                                          *

           3605 Grant Drive        Dear     David:

            Rcno, NV 89509
            (7o2) 825-2417         Thank     you for giving         the American          Association        of
                                   Dental       Examiners     the opportunity           to comment        on the
   FIRST VICE~~W                   OIG’S October          1992 draft       report      “National
                                   Practitioner          Data   Bank:      Usefulness        and Impact        of
      Dr. Lillian H. BachnuMI                                                                 Most of the
          30 East 60ch Street      Reports       to State     Licensing        Boards.”
       New York, NY 10022          AADE comments          were transmitted           to you by telephone
              (212) 755-0125       or during        the National        Practitioner         Data     Bank
                                   Executive        Committee      Meeting,       December       14,   1992.
 SECONDVICE-PRWDW

          Dr. Ken C. Crawley       The report          stated,        “From the         opening       of the     Data
                440 Broad S1.      Bank in September                1990 through            March     19, 1992,
         Columbit% MS39429         there      were     59 queries          from boards           that    matched       a
              (6ol) 736-1761
                                   total      of 68 reports            about       practitioners           in the
                                   Data     Bank.        Thirteen        different           agencies      submitted
   THIRD Vlm-mmmm
                                   these      queries:           11   medical        board%        1  dental      board~
       Dr. Harry R. Dominen        and 1 umbrella              agency      representing            several      state
       2860 Piedmont Avenue        boards.”          In my opinion,              this      is an extremely
           Duluth, MN 55811
             (218) 722-0823
                                    small      sample       from which         to draw any conclusions
                                    especially          regarding        usefulness            of the     NPDB for
IMMEDIATE PAST PRBSIDENT            the    dental       boards.         Also,      i.t is suggested           that
                                    comments       distinguish           between         medical       and dental
           m. Robert T. Ferris      boards       in the       report.
        475 Maitland Avenue
   Ahamont.eSprings, FL 32701
              (4o7) 831-1747        In addition,          I agree       with    comments      made at the
                                    NPDB Executive           Committee        Meeting       by Dr. Jim Wynn,
      IMKUTIVE     DIR.IKXOR        Federation         of State       Medical       Boards’    Executive
                                    Director,        that    an important           question    was missed   in
             Ms. Molly Nadler
                                    this    study      -- why state          boards      do not query    the
        211 E. Chicago Avenue
                     Suite 844      NPDB .      Possibly        another      study     could   be done when
            Chicago, ~ 60611        more boards          have queried          that    would   address   the
               (312) 440-7464       cost     versus      benefit      ratio      to the boards.
                      EDITOR
                                    Again,       thank     you    for     allowing         the       AADE to   comment.
             m. Kathleen Kelly
            44 E. Mifflin Sk&t                                                  Sincerely,
                      Suite 204
            Madiso% WI 53703
                                                                                                 4
               (608) 256-049
                                                                                Molly     Nadler
                                                                                Executive        Director

                                     cc :     Members,       Executive         Council


                                                                        C-II
                      OIG RESPONSE TO AADE COMMENTS

We agree that it is difficult to judge the usefulness of the information in the Data Bank
to State dental boards based on the experience of one board with one match. We note,
however, that we did not draw a sample of the matches, but instead looked at the
universe of matches. Our conclusions are based on all of the experiences boards had had
with reports at the time of the study. Therefore, while we have added information in our
background that emphasizes that most of the experiences with reports have been comes
from medical boards, we have not made changes to findings or to the conclusion.

The AADE notes that we did not address an important issue in our study -- why State
boards frequently do not query the Data Bank. We agree that this is an interesting and
important question, but note that it was beyond the scope of this study.




                                         C-12
                           APPENDIX                   D
                                       NOTES


1.    Actions that must be reported include: adverse decisions on hospital privileges
      including voluntary resignation; actions taken by State licensing boards on
      licenses including suspension, denial, restriction, and revocation; and losses of
      membership in professional societies.

2.    As of March 30, 1992, only 40 of the more than 130 medical, osteopathic,
      dental, and other State boards had submitted queries.

3.    As of March 19, 1992, there were 69 matches. According to HRSA, there were
      9,813 queries from State licensing boards as of March 30, 1992.

4.    The match rate is expected to increase over time as more practitioners    are
      reported to the Data Bank.

5.    P.L. 99-660, Sec. 402.

6.    M. Holoweiko, “The malpractice data bank is turning into a Frankenstein,”
      Medical Economics, May 6, 1991, pp. 120-133.

7.    In the other two cases, the practitioners themselves provided boards with
      information that the Data Bank did not provide.

8.    Response time is defined as the time a board had to wait between submitting a
      query to the Data Bank and receiving a report.

9.    For a more thorough discussion of the Data Bank’s response time, see the OIG
      report, Nah”onal Practitioner Data Bank: Usefulness and Impact of Repotis to
      Hospitalk (OEI-01-90-00520), forthcoming.

10.   In the five cases where respondents had received two reports in response to
      their queries, the pairs of reports were extremely homogeneous.      ln all five
      cases, both reports provided information from sources outside the State in
      which the querier was located. In three cases, both reports involved
      malpractice payments; in the other two cases, both reports involved adverse
      actions. All malpractice payments in these responses were for amounts greater
      than $50,000. The only differences between paired reports relevant to this
      study concerned types of adverse actions. One response contained a pair of
      reports submitted by hospitals, but the other contained one report submitted by
      a hospital and one report submitted by a licensing board. In constructing
      table 1, we included this split pair as 1 of the 13 responses involving board
      licensure actions. Had we included the pair as a response involving hospital


                                          D-1
privilege actions, the proportions of responses considered useful for these two
types of adverse actions would have been even more similar.




                                  D-2
